No. 20A138

In the Supreme Court of the United States
GATEWAY CITY CHURCH, ET AL.,
Applicants,
v.
GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF CALIFORNIA, ET AL.,
Respondents.
To the Honorable Elena Kagan, Associate Justice of the United States
Supreme Court and Circuit Justice for the Ninth Circuit
CERTIFICATE OF SERVICE
I, Eric Rassbach, a member of the Bar of this Court and counsel for the amicus on
the accompanying Motion by The Becket Fund for Religious Liberty, with Attached
Proposed Amicus Curiae Brief in Support of Applicants, for (1) Leave to File the Brief
and (2) to Do So without Ten Days’ Notice, certify that on this 24th day of February,
2021, I caused a copy of the motion and amicus brief to be served via next day service
and electronically on the following:
Kevin T. Snider
PACIFIC JUSTICE INSTITUTE
P.O. Box 27660
Sacramento, CA 95827
Tel. (916) 857-6900
ksnider@pji.org
Counsel for Applicants
Todd Grabarsky
CALIFORNIA DEPARTMENT OF JUSTICE
300 South Spring Street
Los Angeles, CA 90013
Tel. (213) 269-6044
Todd.grabarsky@doj.ca.gov
Counsel for Respondents Governor
Gavin Newsom & Director Sandra
Shewry

Hannah M. Kieschnick
Karan S. Dhadialla
OFFICE OF THE COUNTY COUNSEL,
COUNTY OF SANTA CLARA
70 West Hedding Street
San Jose, CA 95110
Tel. (408) 299-9021
Hannah.kieschnick@cco.sccgov.org
Karan.dhadialla@cco.sccgov.org
Counsel for Respondents County of
Santa Clara & Dr. Sarah H. Cody

I further certify that all parties required to be served have been served.

Eric Rassbach
Counsel of Record
The Becket Fund for Religious Liberty
1919 Pennsylvania Ave. NW
Washington, DC 20006
Tel. (202) 955-0095
erassbach@becketlaw.org

